     Department of Homeland Security




             Insurance Allocations to FEMA 

         Public Assistance Grant Funds Awarded 

     to the Administrators of the Tulane Educational 

               Fund, New Orleans, Louisiana




DD-12-10                                           April 2012

                                                            Office ofInspector General

                                                            u.s. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security

                                                         APR 1 9 2012

MEMORANDUM FOR:



FROM:
                              Assistant Inspector G
                              Office of Emergency     anagement Oversight

SUBJECT:                      Insurance AllocCJtions to FEMA Public Assistance Grant Funds
                              Awarded to the Administrators of the Tulane Educational Fund,
                              New Orleans, Louisiana
                              FEMA Disaster Number 1603-DR-LA
                              Audit Report Number DD-12-10

We are currently auditing $153.1 million ofFederal Emergency Management Agency (FEMA)
public assistance funds awarded to the administrators of the Tulane Educational Fund (Tulane) in
New Orleans, Louisiana (Public Assistance Identification Number OOO-ULVHC-OO). The
Louisiana Governor'~ Office of Homeland Security and Emergency Preparedness (GOHSEP), a
FEMA grantee, awarded these funds to Tulane for disaster recovery work related to Hurricane
Katrina, which occurred in August 2005. The purpose of this memorandum is to advise you of
insurance issues related to Tulane's award that require your immediate attention.

As discussed below, FEMA needs to (1) apply an additional $24.5 million of proceeds from
Tulane's commercial insurance policies to reduce the value of Tulane's projects and (2)
complete its review of eligible and ineligible losses covered under Tulane's commercial
insurance policies to determine whether the amount of proceeds applied to reduce the value of
Tulane's projects should be increased or decreased.

We are conducting this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objectives. Our overall objective is to determine whether Tulane accounted for
and expended FEMA public assistance funds according to federal regulations and FEMA
guidelines. At the conclusion of our audit, we plan to issue our complete audit report, including
any additional findings and recommendations. Table 1 shows the gross and net award amounts
obligated before and after reductions for a Small Business Administration (SBA) loan and
insurance proceeds (applied as of June 2011) for all projects.

                          Table 1. Gross and Net Award Amounts
                         Gross Award    SBA Loan      Insurance                Net Award
                           Amount       Reduction     Reductions                Amount
         All Projects     $291,896,596     $(1,500,000) $(137,309,505) $153,087,091

Background – Insurance Proceeds

Tulane received or is expected to receive approximately $274.6 million of commercial insurance
proceeds for Katrina property damages and business interruption and $28.8 million in National
Flood Insurance Program (NFIP) proceeds for property damages. Most of Tulane’s commercial
policies provided blanket coverage for losses that can be classified as either (1) eligible for FEMA
reimbursement (primarily physical property losses) or (2) not eligible for FEMA reimbursement
(primarily business interruption losses). All of the flood insurance is eligible for FEMA
reimbursement; however, neither Tulane nor its insurers allocated the proceeds received from
blanket commercial insurance policies between FEMA-eligible losses and FEMA-ineligible
losses. Federal regulations at 44 CFR 206.250(c) require FEMA to deduct actual or anticipated
insurance recoveries that apply to eligible costs from project awards. This action prevents
subgrantees from receiving duplicate benefits for losses.

Issue #1: Application of Insurance Proceeds to Tulane’s Projects

As of June 2011, FEMA had applied approximately $137.3 million of the $303.3 million in
insurance proceeds from Tulane’s insurance policies to reduce the value of Tulane’s projects,
thereby allowing Tulane to retain $166.0 million (see table 2). Since then, FEMA has
determined that at least another $24.5 million of insurance proceeds retained by Tulane covered
FEMA-eligible expenses. Therefore, FEMA should apply the additional $24.5 million of
insurance proceeds to Tulane’s projects. Doing so will increase the amount of insurance
proceeds applied to Tulane’s projects from $137.3 million to $161.8 million and decrease the
amount of insurance proceeds retained by Tulane from $166.0 million to $141.5 million.

Tulane officials did not fully agree that an additional $24.5 million of insurance proceeds should
be applied to reduce the value of its projects. They believe that Tulane will not recover all of the
future flood insurance settlements projected by FEMA and that less of the insurance proceeds
should be applied to FEMA-eligible expenses.




                                                 2

               Table 2. Application of Tulane’s Insurance Proceeds as of June 2011
                                                     Insurance Proceeds
            Type of Insurance           Received by       Applied to         Retained by
                                          Tulane           Projects            Tulane
      Commercial Insurance               $274,573,165    $108,536,323        $166,036,842
      NFIP Insurance
        Actual Proceeds                  $ 23,160,783
        Anticipated Proceeds                5,612,399
      Total NFIP Insurance                 28,773,182         28,773,182                  0
      Totals                             $303,346,347      $137,309,505      $166,036,842

Issue #2: Allocation of Insurance Proceeds From Blanket Commercial Policies

Neither Tulane nor FEMA has developed a formal, documented analysis of eligible and
ineligible losses covered by insurance. As a result, obligated funds may be overstated or
understated because FEMA does not know what proportion of insurance proceeds should be
allocated to eligible and ineligible disaster costs/losses. Therefore, FEMA should request the
appropriate documentation from Tulane to support its eligible and ineligible losses. Based on
this documentation, FEMA should develop its own analysis of eligible and ineligible losses and
adjust the allocation of insurance to Tulane’s projects accordingly. FEMA officials said that
they have always planned to update Tulane’s insurance allocation when the facts warranted and
agreed that an update is necessary.


                                   RECOMMENDATIONS

We recommend the Regional Administrator, FEMA Region VI:

       Recommendation #1: Apply an additional $24.5 million of proceeds from Tulane’s
       commercial insurance policies to reduce the value of Tulane’s projects. Because these
       costs are funded from another source, they are ineligible (issue #1).

       Recommendation #2: As soon as possible, complete the review of eligible and
       ineligible losses covered under Tulane’s commercial insurance policies to determine
       whether the amount of proceeds applied to reduce the value of Tulane’s projects should
       be increased or decreased (issue #2).


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the interim results of our audit with FEMA and discussed insurance issues with
Tulane officials during our audit and have included their comments in this report as appropriate.
We also provided a draft report in advance to FEMA officials and discussed it at an exit
conference held with FEMA on February 14, 2012. FEMA officials generally agreed with our
findings and recommendations.


                                                3

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report to our website for public
dissemination. Significant contributors to this report were Tonda Hadley, Paige Hamrick,
William Haney, and Timothy Scott.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.


cc:	   Administrator, FEMA
       Director, Risk Management and Compliance, FEMA Office of Chief Financial Officer
       Executive Director, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-043)
       Audit Liaison, DHS




                                                4

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
